INSPECTOR GENERAL’S STATEMENT
SUMMARIZING THE MAJOR MANAGEMENT
AND PERFORMANCE CHALLENGES FACING
THE U.S. DEPARTMENT OF THE INTERIOR




Report No.: ER-SP-MOI-0012-2013   December 2013
               OFFICE OF
               INSPECTOR GENERAL
               U.S.DEPARTMENT OF THE INTERIOR



                                                                                DEC 0 3 2013
Memorandum

To:             Secretary Jewell

From:           Mary L. Kendall
                Deputy Inspector Genera

Subject:        Inspector General's Statement Summarizing the Major Management and
                Performance Challenges Facing the U.S. Department of the Interior
                Assignment No. ER-SP-MOI-0012-2013

         In accordance with the Reports Consolidation Act of 2000, the Office of Inspector
General (OIG) is submitting what it determined are the most significant management and
performance challenges facing the U.S. Department of the Interior (DOl). The challenges listed
are for inclusion in DOl's "Agency Financial Report" for fiscal year 2013. These challenges
reflect those OIG considers significant to departmental efforts to promote economy, efficiency,
and effectiveness in its bureaus' management and operations.

        We identified the top management and performance challenges as-

        •   energy management;
        •   climate change;
        •   water programs;
        •   responsibility to Indians and Insular Areas;
        •   information technology;
        •   disaster response;
        •   operational efficiencies; and
        •   public safety.

        We met with DOl officials to gain their perspective and together agreed on the challenge
areas. These areas are important to DOl's mission, involve large expenditures, require
continuous management improvements, or involve significant fiduciary relationships. We
believe DOl would benefit by developing strategies to identifY and address challenges in these
areas, especially in those that span bureau and program lines.




                                Office of Inspector General I W ashington, DC
Table of Contents
Top Management Challenges for the U.S. Department of the Interior ................... 1
  Energy Management ........................................................................................... 1
    Offshore Energy .............................................................................................. 1
    Renewable Energy: Bureau of Land Management .......................................... 1
    Leasing Activities on Federal Lands: Bureau of Land Management .............. 2
    Government Accountability Office’s 2011 High-Risk List ............................ 2
  Climate Change ................................................................................................... 3
  Water Programs ................................................................................................... 4
    WaterSMART.................................................................................................. 5
    Central Valley Project ..................................................................................... 5
  Responsibility to Indians and Insular Areas ........................................................ 6
    Indian Affairs ................................................................................................... 6
    Insular Areas .................................................................................................... 8
  Information Technology...................................................................................... 9
    Infrastructure ................................................................................................. 10
    Security .......................................................................................................... 10
    Resource Management .................................................................................. 11
    Governance .................................................................................................... 11
  Disaster Response ............................................................................................. 12
  Operational Efficiencies .................................................................................... 13
    Sequestration Impact ..................................................................................... 13
    Grants Management ....................................................................................... 13
    Travel ............................................................................................................. 14
    Training ......................................................................................................... 14
    Revenue from DOI Resources ....................................................................... 15
  Public Safety ..................................................................................................... 16
    Hantavirus Outbreak ...................................................................................... 16
    DOI Dam Safety ............................................................................................ 16
  Conclusion......................................................................................................... 17
Top Management Challenges for the
U.S. Department of the Interior
Energy Management
The U.S. Department of the Interior (DOI) has jurisdiction over 1.76 billion acres
of the Outer Continental Shelf (OCS), manages about one-fifth of the land area of
the United States, and manages 700 million acres of subsurface minerals
throughout the Nation. DOI lands and waters generate almost one-third of the
Nation’s domestic energy production, resulting in royalties of approximately $12
billion in fiscal year 2012 and $11.2 billion in fiscal year 2011.

In an effort to manage this responsibility more effectively, DOI underwent major
changes in fiscal year 2012 in the area of energy management, which included the
transition of the Bureau of Ocean Energy Management, Regulation and
Enforcement (BOEMRE) into the Bureau of Ocean Energy Management
(BOEM), the Bureau of Safety and Environmental Enforcement (BSEE), and the
Office of Natural Resources Revenue (ONRR).

Offshore Energy
In September 2013, OIG completed an evaluation of DOI’s Offshore Renewable
Energy Program to determine Program effectiveness. Our evaluation found that
DOI does not have updated regulations or detailed standard operating procedures
for the Program’s internal processes. We also found that ONRR has not
documented its policies and procedures for its processes and responsibilities
regarding receipt and review of rental payments and operating fees. DOI has an
opportunity to strengthen and improve its Offshore Renewable Energy Program
by finalizing regulations and completing and documenting internal procedures.
BOEM plans to revise these documents in a strategic manner as experience is
gained in this new industry.

To date, BOEM has issued four offshore wind energy leases off the coasts of
Massachusetts, Delaware, and Rhode Island. BOEM held a competitive auction
off the coast of Virginia in September 2013 and future competitive lease sales are
planned in 2014 for areas off the coasts of Maryland, New Jersey, and
Massachusetts.

Renewable Energy: Bureau of Land Management
The Bureau of Land Management (BLM) also addressed the expansion of
renewable energy by increasing its capacity to process renewable energy grants
for rights-of-way (ROW) and to address weaknesses previously identified by
OIG. Specifically, BLM issued a policy requiring State offices to annually track
bonds for wind and solar projects and to charge the current rental fee.




                                                                                   1
Leasing Activities on Federal Lands: Bureau of Land Management
Geothermal Program
In March 2013, OIG completed an evaluation of BLM’s geothermal program,
which is responsible for issuing leases, inspecting drilling sites, enforcing safety
and environmental rules, and other activities related to the development and
production of geothermal resources on Federal lands.

We found that operational orders for geothermal resources, which were issued by
BLM to implement and enforce Federal regulations, were approved more than 30
years ago and fail to account for technological advancements. BLM personnel
reported that four of the seven orders are no longer applicable, as the provisions
have been incorporated into the current Federal regulations. Absent a uniform,
current set of orders, BLM relies on outdated information to oversee the
geothermal program and risks noncompliance with Federal regulations.

In addition, BLM has no standardized policy governing the geothermal inspection
and enforcement program. Therefore, many offices have developed their own
inspection processes, creating inconsistencies among BLM’s State and field
offices. We identified variations in the types of inspections conducted, in the
formats used for conducting inspections, in the type of data collected during the
inspections, in the frequency of inspections performed, and in the qualifications
and training required for inspectors.

We believe that our four recommendations to review and update existing orders to
create an up-to-date, uniform set of policies and to standardize and routinely
examine the inspection and enforcement process for geothermal operations
provides BLM the opportunity to manage its geothermal resources more
effectively.

Coal Program
In June 2013, OIG issued an evaluation that assessed DOI’s effectiveness in
managing its coal program. We found weaknesses in the current sale process that
puts the Government at risk for not receiving the full, fair market value for its coal
leases. For instance, we identified lost bonus revenues of $2 million in recent
lease sales and $60 million in potentially undervalued lease modifications. In
addition, flaws in the inspection and enforcement program could prevent BLM
personnel from detecting noncompliance with laws, regulations, and lease terms.

We made 13 recommendations to enhance BLM’s coal sales and inspections.
Because even a 1-cent-per-ton undervaluation in the fair market value calculation
for a sale can result in millions of dollars in lost revenues, correcting the
identified weaknesses could produce significant returns to the Government.

Government Accountability Office’s 2011 High-Risk List
In February 2011, the U.S. Government Accountability Office (GAO) added
DOI’s management of Federal oil and gas resources to its list of Federal programs

                                                                                       2
and operations at high risk for waste, fraud, abuse, and mismanagement or
needing broad-based transformation. GAO added DOI’s program to this high-risk
area for three reasons:

   •   DOI did not have reasonable assurance that it was collecting its share of
       revenues.
   •   DOI continued to experience problems hiring, training, and retaining
       sufficient staff to provide oversight and management of oil and gas
       operations.
   •   DOI engaged in a broad agency reorganization that could adversely impact
       its ability to effectively manage oil and gas during the crisis following the
       Deepwater Horizon incident.

GAO recommended that DOI comprehensively reassess its revenue collection
policies and processes. In response to this recommendation, DOI contracted for a
study to help it make decisions about lease terms, including royalties. While the
study has been completed, GAO determined that DOI is still in the process of
deciding whether to use the results of the study.

In February 2013, after DOI completed its reorganization, GAO narrowed the oil
and gas high-risk area to focus on revenue collection and human capital
challenges. According to GAO, DOI has not yet fully implemented all
recommendations regarding these specific issues, and GAO is currently
examining DOI’s progress.

Regarding human capital issues, Congress provided funds for fiscal years 2012
and 2013 to BOEM and BSEE in the Gulf of Mexico to establish higher minimum
rates of pay for key positions, such as geophysicists, geologists, and petroleum
engineers. BOEM and BSEE could increase minimum pay rates by up to 25
percent. As a result, DOI stated that BSEE has increased the number of critical
scientific, technology, and engineering positions by 79.

Climate Change
In its 2013 report, GAO identified climate change as a high-risk area. Climate
change is a complex, crosscutting issue that poses risks to many environmental
and economic systems—including agriculture, infrastructure, ecosystems, and
human health—and presents a significant financial risk to the Federal
Government.

The scope and magnitude of the effects of climate change, combined with the
difficulty in developing response strategies, have continued to pose significant
management challenges to DOI. The lands and resources managed by DOI face
increasingly complex and widespread environmental challenges associated with
climate change, such as increased coastal erosion due to weather related
phenomenon, wildland fires, as well as destruction from invasive species, such as
the pine bark beetle. In addition, communities continue to face increasing issues

                                                                                    3
with water availability and drought which affect farming and other land uses,
while other urban and rural areas face issues with flooding.

DOI continues to face the challenge of developing relevant scientific information
for land, water, and wildlife managers on a regional basis. DOI also must continue
to work effectively and efficiently across landscapes and watersheds with other
Federal agencies, States, local and tribal governments, and private partners to
formulate shared understandings and common strategies for land and resource
managers to adapt to the challenges and ensure the resilience of our Nation’s
resources. In doing so, DOI must ensure that taxpayer dollars are wisely spent and
closely monitored to ensure that funds are used appropriately. While DOI climate
change activities are funded at the bureau level, the tracking of how these dollars
are being spent remains a decentralized activity.

Former Secretary Salazar signed Secretarial Order 3289 on September 14, 2009,
and amended it February 22, 2010, titled, “Addressing the Impacts of Climate
Change on America’s Water, Land, and Other Natural and Cultural Resources.”
The document coordinated the application of scientific tools to increase
understanding of climate change and determine an effective response to its impact
on tribes and on land, water, ocean, fish and wildlife, and cultural heritage
resources managed by DOI. In support of the Secretarial Order, as the largest land
manager in the United States, DOI has established and uses 8 climate science
centers (CSCs) and 22 landscape conservation cooperatives (LCCs) as vehicles
through which to address climate change and other ecological stresses.

In June 2013, OIG issued an audit report that sought to determine if DOI properly
manages funding for LCCs. We evaluated 47 grants worth $6.8 million.
Specifically, we found areas of concern with respect to the management of grants
and cooperative agreements at FWS that could potentially place millions of
dollars at risk and jeopardize future funding and support for the LCCs’ activities.
We identified issues related to the effective implementation of internal controls,
the selection and awarding of financial agreements through fair and open
competition, as well as oversight and control of LCCs. LCCs, however, remain a
highly valuable conservation approach to addressing large-scale challenges and
stresses to natural resources.

We offered 15 recommendations and promising practices to help LCC grant-
management activities conform with regulations and DOI policies. DOI has
submitted a corrective action plan to resolve our recommendations by December
31, 2015. OIG will continue to focus staff resources where they will have the
most impact on DOI’s climate change efforts.

Water Programs
As the largest supplier and manager of water in the 17 western States, DOI
delivers irrigation to 31 million people, 1 out of every 5 western farmers, and 10
million acres of farmland. The challenges associated with these responsibilities

                                                                                     4
include an aging water infrastructure, rapid population growth, depletion of
groundwater resources, impaired water quality associated with particular land
uses, and land covers (the physical material at the surface of the earth, such as
grass, trees, or asphalt).

WaterSMART
The Bureau of Reclamation (USBR) manages the WaterSMART program, which
secures and conserves water supplies for use by existing and future generations to
benefit people, the economy, and the environment. The program also identifies
adaptive measures needed to address climate change impacts and future supply
demands. In fiscal year 2013, USBR funded a small number of multiyear
WaterSMART grant projects in 1-year phases to determine whether larger, phased
projects would result in additional water conservation as opposed to 1-year
projects. In fiscal year 2014, USBR will use fiscal years 2012 and 2013 results to
determine whether adjustments to future funding opportunity announcements
should be changed from 1-year projects to multiyear projects.

Central Valley Project
The Central Valley Project (CVP) in California is currently one of the largest
water supply projects in the United States, providing water to more than 3 million
acres of farmland and to nearly 1 million households each year. As of 2011, the
remaining reimbursable Federal investment in the CVP facilities providing water
for irrigation and municipal and industrial purposes was $1.3 billion.

In March 2013, OIG completed an evaluation of CVP to determine whether the
Federal Government is on track to recoup its investments in the project by the
legally established deadline of 2030. We found that USBR is not making steady
progress toward recovery of Federal investments in the CVP because current CVP
rate-setting policies, water projection methods, and contract provisions do not
ensure that sufficient revenue is generated each year. When actual water
deliveries are less than projected deliveries, revenues are insufficient to recover
the Federal investment in the project. When actual water deliveries exceed
projected deliveries, however, existing contract provisions stipulate that excess
revenues collected by USBR must be refunded to the contractors.

USBR has 18 years remaining to ensure that the repayment requirement is met.
The longer USBR waits to improve its rate-setting policies and ensure stable
repayment of the Federal investment, the greater the impact will become. This
could cause significant, if not unsustainable, rate increases to water contractors,
creating the potential for rates to exceed the contractors’ ability to pay. Rate
increases could also lead to contractors requesting that Congress extend the
repayment deadline beyond 2030 or provide additional repayment relief. Our
report included two recommendations to help USBR recoup its investment.




                                                                                      5
Responsibility to Indians and Insular Areas
Indian Affairs
Responsibility to American Indians is consistently a top management challenge
for DOI. Through the Bureau of Indian Affairs (BIA), DOI works with 566
federally recognized Indian tribes, has trust responsibilities for 112 million
surface and subsurface acres of land belonging to Indian tribes and individuals,
and provides education services to approximately 41,000 Indian children in 183
schools and dormitories. Some of the Indian Country programs managed by DOI
include Indian Trust for Lands and Funds, Social Services, and Justice Services.

Cobell and Indian Land Consolidation
In December 2009, Secretary Salazar announced the settlement of the long-
running and highly contentious Cobell v. Salazar class-action lawsuit regarding
the U.S. Government’s trust management and account of over 300,000 individual
American Indian trust accounts. Congress approved the $3.4 billion settlement on
November 30, 2010 (Claims Resolution Act of 2010).

Because wills were not widely used by American Indian landowners, smaller and
smaller land interests descended to successive generations, thereby fractionating
the land, limiting the tribes’ productive use of land, and creating jurisdictional
issues. As a result, BIA and the Office of the Special Trustee for American
Indians devote a significant portion of their budgets to administer the fractionated
land interests. To address land fractionation, the settlement established a $1.9
billion fund for the voluntary buyback and consolidation of fractionated land
interests. The land consolidation program will provide individual American
Indians with an opportunity to obtain cash payments for the sale of their
undivided land interests and provide tribal communities with the economic benefit
resulting from better use of the land.

In August 2012, we issued an advisory report on probate and estate planning
activities related to Indian land consolidation. We found that the purchase option
at probate had not been utilized due to concerns by the Office of Hearings and
Appeals as to the type of sale and the suitability of appraisals. The purchase
option at probate is often viewed as a forced sale due to the lack of a willing or
knowledgeable seller. In addition, there is no uniform requirement for the type of
appraisal report needed in purchase-at-probate sales. We also found that
comprehensive estate planning can combat further fractionation. DOI, however,
does not currently fund estate planning services. We made four recommendations
to address the report findings.

In July 2013, we released an advisory report that addressed six important issues
for DOI to consider when providing funding to tribes for Indian land
consolidation. These issues included—

   •   selecting the funding instrument—either a grant, cooperative agreement,
       or procurement agreement;

                                                                                   6
   •   drafting a scope of work that outlines specific responsibilities of the tribes
       and DOI;
   •   defining inherently governmental activities to determine which activities,
       if any, can be performed only by Government personnel;
   •   maintaining transparency when making single-source determination,
       which eliminates the requirement for competition when seeking an award;
   •   soliciting legal review from the Office of the Solicitor when developing
       new programs or policies that affect funding allocations and when making
       complex awards; and
   •   monitoring requirements for Federal financial assistance programs to
       promote good stewardship of awarded funds.

The advisory also included sources for further guidance to assist DOI’s efforts
toward providing funding for participating tribes to implement portions of the
land consolidation program.

Social Services Program
BIA provides tribes about $137 million each year in social services funding to
provide welfare assistance for almost two million individuals in 566 recognized
tribes. In March 2013, OIG issued an evaluation report of BIA’s social services
program. We found unclear guidance as it relates to performance standards and
roles and responsibilities that kept Bureau personnel from understanding and
successfully conducting their work. We also found that communication among
managers, staff, and tribes was ineffectual, demonstrated by the absence of clear
instructions for data calls, the inability to share social service information across
all necessary BIA social service channels, and the failure to respond to funding
requests for welfare assistance applicants. Such inadequate communication has
hindered effective functioning of social services programs. It also made it difficult
for us to precisely determine if BIA’s social services program was effectively
administered, if cases were adequately managed, if Bureau-level social services
data were accurate or reliable, and if tribal members applying for social services
were receiving what they needed.

We offered seven recommendations related to policy and performance planning to
help BIA manage its social services resources more effectively.

Bureau of Indian Affairs Investigations
Approximately one-fourth of OIG investigations involve Indian Country. Most
recently, OIG completed a joint investigation with the FBI and the Internal
Revenue Service’s Criminal Investigation Division of Crow Tribe Historic
Preservation Office (THPO) employees. The investigation determined that the
former THPO director illegally told companies to pay THPO employees directly
for cultural monitoring activities performed by the employees. This practice
circumvented Crow Tribe procedure that requires the tribe’s financial office to
submit invoices to companies for cultural monitoring work performed; the
companies then remit payment to the Crow Tribe for those services. Between July

                                                                                    7
17, 2009, and November 21, 2011, seven individuals illegally received direct
payments totaling more than $500,000 from companies for cultural monitoring
duties performed on behalf of THPO.

The former director and the seven individuals were indicted on November 14,
2012, by a Federal Grand Jury in the U.S. District Court for the District of
Montana for conspiracy to defraud the Crow Tribe, mail fraud, theft from an
organization receiving Federal funds, theft from an Indian tribal organization,
extortion involving a federally funded program, and Federal income tax fraud. All
defendants have pleaded or have been found guilty, and all but the former director
have been charged with sentences ranging from 5 years of probation to 6 months
of jail time and with paying retribution.

Insular Areas
DOI has administrative responsibility for coordinating Federal policy in the
territories of American Samoa, the Commonwealth of the Northern Mariana
Islands, Guam, and the U.S. Virgin Islands. DOI also administers and oversees
Federal assistance provided under the Compacts of Free Association for three
sovereign nations: the Federated States of Micronesia, the Republic of the
Marshall Islands, and the Republic of Palau. DOI coordinates with the U.S. State
Department and other Federal agencies to promote economic development and
budgetary self-reliance in these nations.

DOI manages its responsibility to the Insular Areas primarily through the Office
of Insular Affairs (OIA). OIA works to improve the financial management
practices of the Insular Area governments and to increase economic development
opportunities through financial and technical assistance. OIA annually funds
Insular Area government programs that focus on education, healthcare,
infrastructure improvement, public sector capacity building, private sector
development, and the environment.

Guam Military Buildup
The U.S. Department of Defense (DoD) announced that it has scaled down the
number of troops it will relocate from Okinawa, Japan, to Guam to approximately
5,000 Marines and 1,300 dependents. DoD also revised the timeline for relocation
from its original 2014 target date to no earlier than 2020. Nonetheless, significant
improvements to Guam’s infrastructure and public services will be required. To
help assess Guam’s preparations for the military buildup, OIG performed a series
of evaluations on Guam’s police, fire, and public safety functions that serve the
citizens of Guam. OIG is currently evaluating the Guam Memorial Hospital
Authority and the Guam Department of Revenue and Taxation (DRT).

Guam Memorial Hospital
Guam Memorial Hospital is the only public hospital on Guam. We are in the
process of determining whether the hospital has the ability to meet the medical
care needs of the citizens of Guam and whether opportunities exist to improve

                                                                                   8
services. Preliminary observations revealed that the hospital has a shortage of
medical care professionals and specialized services, limiting its ability to meet the
needs of the island residents. Further, hospital revenues have not kept pace with
the increasing cost of providing medical care services. We are encouraged,
however, that new hospital leadership has been appointed and senior officials
have taken steps to refine hospital policies, improve processes, and increase
revenues.

Guam Department of Revenue and Taxation
To help pay for the island’s infrastructure and service developments, it is
important for DRT to collect all due taxes. We are in the process of determining
the effectiveness of Guam’s ability to collect the Gross Revenue Tax and the
Business Income Tax from companies performing work for the military. Our
preliminary findings show that DRT does not have an adequate process to ensure
a high level of tax compliance. DRT is not using all available information to
identify contractors performing work for the military and the revenues that they
earn. Further, DRT has not dedicated sufficient personnel resources toward
examining tax compliance from these revenue sources.

Detecting Fraud, Waste, and Mismanagement in the Insular Areas
We continue to find that many of the Insular Area governments do not have
sufficient resources to adequately prevent and detect fraud, waste, or
mismanagement involving federally and locally funded programs. The Offices of
the Public Auditor (OPAs) for these governments continue to operate under
insufficient and, in some instances, declining budgets, making it difficult to
compete for and retain qualified audit staff.

Investigations involving the Insular Areas revealed that federally funded
programs remain vulnerable as a result of weak procurement systems and poor
integrity in local government personnel. While OIA has increased its oversight of
the programs it supports, OIA must also rely on OIG and OPAs to help review
these programs and local government operations.

We partnered with OIA to stretch our capacity-building initiatives by providing
audit training to American Samoa earlier this year and are scheduled to reach the
Federated States of Micronesia and the Republic of Palau. This initiative has and
will develop audit skills within OPAs that will help auditors oversee the financial
and program resources and activities of their governments. We also continue to
welcome auditors from OPAs for on-the-job training experiences with OIG.

Information Technology
In September 2013, a GAO report identified issues related to implementation of
information technology security programs Governmentwide. GAO found that in
fiscal year 2012, 24 major Federal agencies had established many of the
components of an information security program required by the Federal
Information Security Management Act of 2002 (FISMA) but had only partially

                                                                                    9
established others. FISMA requires each Federal agency to establish an
information security program that incorporates eight key components, and each
agency inspector general to annually evaluate and report on the information
security program and practices of the agency. The act also requires the Office of
Management and Budget (OMB) to develop and oversee the implementation of
policies, principles, standards, and guidelines on information security in Federal
agencies and the National Institute of Standards and Technology to develop
security standards and guidelines. GAO found that the extent to which agencies
implemented security program components showed mixed progress.

Continuous Monitoring is considered a key technology in agency attempts to
improve cyber security and reduce risk by keeping a constant check on the state of
compliance with security controls and the level of current threats. By approaching
IT security as an ongoing review area rather than a limited engagement, OIG can
provide timely and meaningful solutions to help DOI improve safeguards over the
confidentiality, integrity, and availability of information resources. During fiscal
year 2014, OIG will stand up an IT audit group. Once fully activated, this group
will audit areas such as cyber security, insider threats, Internet protocols and
migration to cloud computing. DOI, however, faces organizational challenges
with IT infrastructure, IT security, IT resource management, and IT governance.

Infrastructure
In December 2010, DOI launched the information technology (IT) transformation
under Secretarial Order 3309. The order directed DOI’s chief information officer
to assume oversight, management, ownership, and control of all IT infrastructure
assets. As a result of assuming greater control of essential IT services, officials in
the Office of the Chief Information Officer (OCIO) identified a number of
concerns, including sufficient capacity (people, processes, and technology), stable
funding models reflecting workload demands, improvements of IT asset
utilization, and a need for a defined governance model that resolves competing
interests between mission and enterprise priorities. DOI has established goals for
IT infrastructure consolidation that—

   •   promote green IT by reducing overall energy consumption (improve IT
       asset and real estate utilization);
   •   reduce cost of data center hardware, software, and operations;
   •   increase overall security posture for Government; and,
   •   shift IT investments to more efficient platforms and technologies.

Security
We learned from OCIO officials, that DOI does not have an IT security program
that fully encompasses vulnerability, threat, and incident management as
recommended by the National Institute of Standards and Technology (NIST).
Efforts to implement a continuous monitoring capability have not been fully
realized due to insufficient resources to acquire key continuous monitoring
components. The U.S. Department of Homeland Security will provide some

                                                                                   10
funding for DOI’s Continuous Diagnostics and Mitigation (CDM) tools, which
seek to improve timely IT security. OCIO officials said that the CDM initiative
helps fund the acquisition of mitigation technology, but substantial efforts will be
needed to fully obtain appropriate levels of cooperation, consultation, and
consensus Departmentwide.

Officials also identified concerns over unacknowledged, undocumented, and
unmanaged IT assets that may pose risks to overall IT security. DOI relies on
manually collected, self-reported data from agency subcomponents, which limits
management’s ability to sufficiently secure DOI’s information resources, respond
to security incidents, and generally manage the IT environment. In addition, DOI
has no reliable inventory of IT assets Departmentwide. This places management
in a position of relying on questionable and outdated information when making
important decisions, including investment of funds, prioritization of projects and
initiatives, and allocation of resources.

OCIO would like to fully transition to enterprise-oriented cyber-security services
by fiscal year 2016, however, needed resources to pursue these initiatives have
not yet been realized.

Resource Management
According to OCIO, it does not have available resources and the bureaus and
offices do not have project managers qualified to enforce and oversee compliance
with OMB’s requirement to deliver projects on time. OCIO officials also stated
that project managers receive internal guidance from bureau and office officials
that is inconsistent with departmental guidance. By not having qualified or fully
dedicated project managers, DOI cannot report accurate performance baselines
internally or to OMB.

Governance
An IT governance reform effort has been underway at DOI since January 2011.
Federal regulations and policy require the chief information officer to have the
authority to terminate underperforming IT investments or shut down systems that
pose a significant risk to the enterprise. Efforts to enforce this authority are being
made through a variety of channels and seek to improve IT governance and
effective IT budgetary controls. OCIO plans to implement a model to integrate the
various levels of IT governance and standard IT spending categories within the
Financial Business and Management System.

Although DOI leadership supports the change necessary for transformation
success, management buy-in at the bureau and office level is a crucial component
to achieve full consolidation and address the challenges of IT infrastructure, IT
security, IT resource management, and IT governance. The commitment and
cooperation of all DOI stakeholders are essential for these efforts to be successful.




                                                                                   11
Disaster Response
DOI has the authority to provide for public safety and protection of natural
resources within its jurisdiction during emergencies, as well as a clear
responsibility to support tribal and insular communities. DOI is also a full partner
in both the National Response Framework and the National Recovery Framework
and applies its vast capabilities as part of interagency plans supporting State,
tribal, and local communities.

In October 2012, Super Storm Sandy devastated States along the East Coast from
Florida to New England, prompting major disaster declarations in Connecticut,
New Jersey, and New York, as well as emergency declarations in Delaware, the
District of Columbia, Maryland, Massachusetts, New Hampshire, Pennsylvania,
Rhode Island, Virginia, and West Virginia.

Overall, DOI received $829.2 million in the Disaster Relief Appropriations Act of
2013, which was reduced by $42.5 million to $786.7 million due to sequestration.
DOI released $475.25 million—approximately 60 percent of its appropriation—to
fund 234 projects that will repair and rebuild parks, refuges, and other DOI assets
damaged by Hurricane Sandy. This funding will also provide investments in
scientific data and studies to support recovery in the region, as well as historic
preservation efforts. DOI will allocate the remaining funding to mitigation
projects that increase coastal resiliency and capacity to withstand future storm
damage and to restore and rebuild public assets.

OIG executed an oversight plan, as the emergency declaration invoked acquisition
flexibilities authorized in the Federal Acquisition Regulation and gave rise to
unusual and compelling needs for supplies and services. Contracts related to
disaster response are riskier than normal because—

   •   the period of performance is generally shorter than a normal contract.
       Thus, all parties have less time for contract oversight, such as site visits,
       timesheet reviews, review of contractor and subcontractor invoices, and
       other administrative items;
   •   they are more often awarded without competitive bidding, leading to
       difficulty in establishing a reasonable price and a higher than market value
       contract;
   •   emergency contracts add workload to contracting staff, which can result in
       less oversight of additional contracts and dollars;
   •   they are more often awarded as cost reimbursement contracts. Unlike
       firm-fixed-price contracts where the contractor has the burden for cost,
       cost reimbursement contracts shift the burden to the Government. Under
       these types of contracts the Government is responsible to ensure all costs
       are reasonable, allowable, and allocable, resulting in increased oversight
       responsibilities by contracting officials; and



                                                                                  12
   •   there are more uncertainties for disaster response contracts that often lead
       to large increases from the base amount.

OIG has taken a proactive approach to oversight related to DOI’s emergency
recovery efforts and has started performing contract audits. We have also
escalated our outreach efforts and fraud awareness briefings with responding DOI
bureaus, coordinated with the Recovery Accountability and Transparency Board,
and increased oversight of purchase-card use and recovery-related contracts.

Operational Efficiencies
DOI, like other Federal agencies, face considerable challenges in the current
economic and budgetary climate. Budget cuts made pursuant to sequestration
have had and will continue to have profound effects on DOI’s programs, partners,
and services and affect DOI’s ability to maintain grants management, travel,
training, and public safety.

Sequestration Impact
By nature, sequestration is applied to every program, project, and activity within
eligible accounts. As indicated in the President’s March 1, 2013 Sequestration
Order, budgetary resources subject to sequestration are defined as new budget
authority, direct spending authority, and obligation limits. According to DOI
officials, DOI has reached out to the bureaus and to OMB with lessons learned in
an attempt to streamline future implementation efforts and mitigate the impact of
future sequestration.

Grants Management
Grants management has historically been subject to fraud and waste throughout
Government. We dedicate significant resources to reviewing the adequacy of
Departmental and bureau policies and procedures related to grants management.
We identified areas of concern to include insufficient pre-solicitation planning
and competition, selection of inappropriate award vehicles, and a poor
administration and oversight of grants.

Coastal Impact Assistance Program
We audited Coastal Impact Assistance Program (CIAP) grants awarded to the
State of Mississippi to determine whether grant recipients complied with CIAP’s
authorizing legislation, Federal regulations, DOI policies, and grant terms and
conditions and to identify grant management challenges that FWS should address
as it assumed responsibility for managing CIAP.

DOI awarded the State of Mississippi’s Department of Marine Resources and
Hancock, Harrison, and Jackson Counties 100 CIAP grants from fiscal years 2009
through 2012, totaling $99.8 million. During our audit, we found—

   •   grants were approved that did not meet criteria in CIAP legislation;


                                                                                 13
   •   widespread conflicts of interest in the administration of CIAP and land
       purchases;
   •   improper land appraisals;
   •   circumvention of procurement regulations;
   •   improper charges to grants;
   •   improper use of equipment; and
   •   various accounting, payroll, and financial issues.

Of the almost $39 million in our sample representing 57 grants, we questioned
approximately $30 million in CIAP spending including ineligible and
unsupported costs and funds to be put to better use. We provided 37
recommendations to help FWS eliminate program deficiencies.

Landscape Conservation Cooperatives
We audited DOI’s previously mentioned Climate Change program to determine if
DOI properly awarded and effectively managed financial assistance awards
(grants and cooperative agreements) for the landscape conservation cooperatives
(LCCs). We identified issues related to the effective implementation of internal
controls as well as the selection and awarding of financial agreements through fair
and open competition.

Travel
In November 2013, DOI implemented a new travel system to replace GovTrip. In
our Departmentwide audit of GovTrip and related travel processes and
procedures, we assessed DOI’s ability to reconcile its various systems to
determine whether data and dollars spent are fair and accurate. The audit scope
encompassed fiscal years 2009 and 2010 and included testing of more than 700
travel vouchers and 300 charge card statements and found several significant
issues, such as missing documentation and errors in expenses, authorizations
created after the trip date, and unexplained transactions. We offered several
recommendations to ensure successful implementation of the new system.

Training
GAO reviewed Federal agencies to determine which agencies have established
processes to develop and prioritize training investment strategies. GAO obtained
information from 27 chief human capital officers on their training investment
practices through a questionnaire and selected four agencies, including DOI, to
provide illustrative examples.

Senior human capital officials in DOI reported that DOI’s leadership, including
the chief human capital officer, are not aware of DOI’s overall training
investments Departmentwide and have no formalized mechanism for ensuring
accountability for how the funds are used. Further, since each bureau
independently secures training, there is no consistency among bureaus, little
quality control, and no maximization of procurement tools, like blanket purchase
agreements, across DOI.

                                                                                 14
To address these challenges, DOI formed a Departmentwide task force to identify
potential duplication in training, funds expended in training delivery, and the cost
of travel and facilities. In July 2012, the task force recommended opportunities to
generate efficiencies and savings in training operations to the chief learning
officer. DOI’s Office of Strategic Employee and Organization Development is
developing action plans to address the task force’s recommendations.

Revenue from DOI Resources
The Federal Government has effectively controlled the market for helium for
almost a century through its position as a predominant supplier. In managing the
Federal helium program, BLM has a responsibility to receive a fair return on its
helium inventory.

In November 2012, we audited BLM’s helium sales program. We found that
BLM does not have the capability needed to identify and maintain market value
prices for its helium reserve. Without changes to the program, there is no
assurance that BLM’s nongovernmental helium sales occurring over the next 5 to
7 years will be made at market value. At recent BLM prices, sales of helium
would generate about $1 billion in revenue. Current prices, however, are
established based on cost rather than on market value. The market value of
BLM’s helium inventory will be potentially much higher as new and expanding
technologies create significant demand. For each percentage point increase in
value, BLM could collect an estimated $10 million in additional helium revenues.
For example, a 25 percent increase in value would generate $250 million in
additional gross revenues. Depending on the established market value and the
future cost of program operations, BLM could collect at least this amount. To
capitalize on this opportunity, BLM needs to identify and charge market value for
all helium sales to nongovernmental purchasers.

In addition, BLM manages nongovernmental helium sales without the formal
procedures needed to guide program operations. Timely action is required to
ensure the helium program can operate effectively over the coming years. Our
report made three recommendations to strengthen the Bureau’s management of its
helium inventory.

The President signed the Helium Stewardship Act of 2013 on October 2, 2013.
The Act gives DOI broad discretion to operate helium sales “with minimum
market disruption” for the near term, while calling for program reforms that
“maximize the total financial return to the taxpayer.” To ensure a market basis for
nongovernmental helium sales in fiscal year 2015 and beyond, BLM is to
annually consider “recommendations and disaggregated data from a qualified,
independent third party who has no conflict of interest, who shall conduct a
confidential survey of qualifying domestic helium transactions.” Incorporating
independent market data into its pricing should better position BLM to secure a
fair return on this increasingly valuable resource.


                                                                                  15
Public Safety
Each year, millions of individuals visit DOI’s national parks and monuments,
wildlife refuges, and recreational sites. DOI is responsible to serve these visitors
and to maintain and protect thousands of facilities and millions of acres of
property. In some cases, the isolation of lands and facilities present unique
vulnerabilities, making public safety a challenge.

Hantavirus Outbreak
In May 2013, we completed an inspection at Yosemite National Park in response
to a Hantavirus outbreak in some of the park’s visitor tent cabins. During the
summer of 2012, Yosemite National Park experienced a Hantavirus outbreak with
10 confirmed cases—9 of which were linked to Curry Village’s “Signature” tent
cabins. Hantavirus is a potentially severe disease of the lungs that can progress
into Hantavirus pulmonary syndrome, which can be fatal. Our inspection focused
on whether NPS provided adequate concessionaire oversight of Yosemite
National Park visitor tent cabins.

We found that NPS provided oversight consistent with its current policy.
Showcasing a proactive public safety mitigation process when the outbreak was
identified, NPS mobilized to contain and remediate the outbreak. NPS acted
according to its review and approval criteria for the concessionaire’s plans and
proposals, pest monitoring and management activities, inspections of the
concessionaire’s visitor accommodations, and information dissemination of
Hantavirus and other similar diseases. After the outbreak, NPS increased its role
in oversight and approval of these planning and monitoring activities.

DOI Dam Safety
In December 2012 and September 2013, OIG completed evaluations of high-
hazard dams managed by BLM, NPS, the Office of Surface Mining Reclamation
and Enforcement (OSM), BIA, and FWS to determine if emergency action plans
(EAPs) are in place, reviewed, updated, and exercised appropriately and to
determine the bureaus’ ability to respond to a disaster at high-hazard dams. DOI
manages and ensures dam safety for the more than 2,600 dams across the Nation,
and the “Departmental Manual” requires that EAPs be prepared for all high- and
significant-hazard dams. High-hazard dams are those whose failure could result in
loss of life; significant-hazard dams are those whose failure would not cause a
loss of life but could result in a significant economic loss.

We found that BLM, NPS, and OSM either have no requirement for EAPs to be
in place for all high-hazard dams under their purview, or have not adequately
reviewed, exercised, or formalized the EAPs that are in place. We also found that
none of the three bureaus have a written policy requiring after-action reports to be
prepared following EAP exercises. In addition, when after-action reports are
prepared, the bureaus do not track recommended corrective actions for
implementation.


                                                                                   16
We also found that neither BLM, NPS, nor OSM has a uniform approach to
monitoring the privately owned, high-hazard dams located on BLM and NPS
lands or the high-hazard, non-Federal dams over which OSM has no direct
regulatory jurisdiction. Neither BLM, NPS, nor OSM has a requirement to
directly regulate such dams, but OIG believes it is important to both alert DOI to
the existence of these dams and to provide information on how DOI can better
monitor and enforce health and safety concerns.

We issued seven recommendations to help DOI better monitor the high-hazard
dams that BLM, NPS, and OSM are responsible for managing and regulating and
made four recommendations to help DOI better monitor the high-hazard dams it
does not own.

In our September 2013 evaluation of high-hazard dams owned by BIA and FWS,
we found that BIA has had some challenges in documenting its EAP exercises
and ensuring that EAPs are final and up to date. In contrast, FWS has EAPs in
place for the high-hazard dams we reviewed and routinely exercises these plans.
FWS also documents the exercises in after-action reports, but it does not have a
formal policy requiring preparation of these reports.

Neither BIA nor FWS maintained documentation verifying equipment and
materials mentioned in EAPs. While there is no requirement for documenting this
verification, it is an important component of emergency preparedness.

We made 13 recommendations to the bureaus to update policies, maintain all of
the required documentation and information, and verify locations and existence of
equipment and materials to assist BIA and FWS in their efforts to improve
emergency management procedures.

Conclusion
Working with DOI officials, we identified energy management, climate change,
water programs, responsibility to Indians and Insular Areas, information
technology, disaster response, operational efficiencies, and public safety as the
most significant management and performance challenges facing DOI. We are
committed to focus our resources on the issues related to these challenges to
ensure greater accountability, promote efficiency and economy in operations, and
provide effective oversight of the activities that comprise DOI’s mission.




                                                                                 17
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
